APPENDIX 1

33

ilmteb States Court of SUppeals.
for tlje Jfiftlj Circuit

umm suiMCatflicfAcettit
RTiCKU

FILED
February 10.2021

No. 20-20027
Summary Calendar

Lyle W. Cayce
Clerk

Fan Go
Plaintiff—Appellant,
venus
INVISTA S.A.R.L.
Defendant—Appellee,

Appeal from the United States District Court
for the Southern District of Texas
USDCNo. 4;19CV-$62
Before Stewart, Graves, and Hiocinson, Circuit Judges.
Per Curiam:*
Fan Gu filed a notice of appeal seeking to challenge 14 rulings by the
district court, including its judgment dismissing Gu*s claim under die Age
Discrimination in Employment Act of 1967 (ADEA); its order granting, in
part, Invista’s postjudgment motion for sanctions; and its order denying

* Pursuant to 5th Circuit Rule 47.5, the court hu determined that this
opinion should not be published tad is not preoedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

34

No. 20-20027

Gu’s postjudgment motion for leave to file amotion to reconsider the court’s
dismissal of his ADEA claim in light of newly discovered evidence. In
connection with his appeal, Gu moves for leave to proceed in forma pauperis
(IFP).
Hie district court did not abuse its discretion by denying Gu IFP
status. See Carson v. Polity, 689 F.2d 562,586 (5th Cir. 1982). The question
of his financial eligibility notwithstanding, Gu’s notice of appeal was
untimely to preserve review of 13 of the 14 rulings he seeks to challenge,
including the dismissal ofhis ADEA claim and the district court's sanctions
order. Consequently, we have no jurisdiction to consider Gu's challenges to
those rulings. See Hamer v. Neighborhood Hous, Servs. of Chicago, 138 S. Ct.
13,16 (2017); Mosley v. Cozby, 813 F.2d 659, 660 (5th Cir. 1987); 28 U.S.C.
§ 2107(a); Fed. R. APP, P. 4(a)(1)(A). Although Gu timely appealed the
district court's denial of leave to file a motion to reconsider the dismissal of
his ADEA claim, he fails to identify any error in the district court's ruling.
See Brinkmatm v. Dallas County Deputy SheriffAbner, 813 F.2d 744,748 (5t.h
Cir. 1987). Because Gu's entire appeal lacks an arguable legal basis for
granting relief, wc DENY leave to proceed IFP and DISMISS the appeal
as frivolous. See BaughTaylor, 117 F.3d 297, 202 & n.24 (5th Cir. 1997);
Howardn. King, 707F.2d 215,220 (5th Cir. 1983); 5TH ClR. R. 42.2.

2

35

APPENDIX 2

36

Case 4:19-cv-00562 Document 55 Filed on 08/30/19 In TXSD Paoelofl
United States District Cout
sootnemONttct o'Texas

tUNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
Fan Gu,

§
§
§
§
§
§
§

Plaintiff,

v.
Invista S.a.r.l.
Defendant.

ENTERED
September 03,2019
David J. Bradley, Clerk

Civil Action No. H-19-562

FINAL JUDGMENT
It is ORDERED that Plaintiffs case be dismissed with prejudice.
This is a final judgment.

Signed at Houston, Texas on August 3O , 2019.

<n^*iBb=
DAVID H1TTNER
UNITED STATES DISTRICT JUDGE

37

APPENDIX 3

38

Case: 20-20027

Document 00515793087

Page: 1

Date Filed: 03/23/2021

Unite)) States Court ot Appeals
for tj)e Jftftl) Circuit
No. 20-20027

Fan Gu,
Plaintiff Appellant>

versus
Invista S.A.R.L.,
Defendants—Appellees.
Appeal from the United States District Court
for the Southern District of Tens
USDCNo. 4tl9-CV-562
ON PETITION FOR REHEARING
AND REHEARING EN BANC
(Opinion 02/10/2021,5 Clft.,

F.3d

Before Stewart, Graves, and Higginson, Circuit Judges.
Per Curiam:
The Petition for Rehearing is DENIED and no member of this panel
nor judge in regular active service on the court having requested that the

39

Case; 20*20027

Document: 00515793087

Page: 2

Date Filed: 03723/2021

No. 20-20027

court be polled on Rehearing En Banc (FED. R, Am. P. and 5™ Cia. R
35), the Petition for Rehearing En Banc is also DENIED.

2

40

APPENDIX 4

41

Case 4:19-cv-00562 Document 48 Filed on 08/15/19 in TXSD Page 1 of 9
United States District Court
Southern District of Texas

ENTERED
tUNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
Fan Gu,
Plaintiff,\
V.

Invista S.ar.l.
Defendant.

§
§
§
§
§
§
§

August 15, 2019
David J. Bradley, Clerk

Civil Action No. H-19-562

AMENDED MEMORANDUM AND RECOMMENDATION
Pending before the court are the following motions:
• Defendant Invista S.a r.l.’s Motion to Dismiss for Failure to State a Claim
(D.E. 16)
• Plaintiff Fan Gu’s Motion to Invalidate Judgments and Relief (D.E. 19)
• Fan Gu’s Motion to Vacate Order Denying Motion for Default Judgment
(D.E.21)
• Invista S.a r.l.’s Opposed Motion to Stay Discovery and Requirements of
Order for Conference (D.E. 22)
• Fan Gu’s Motion to Compel Defendant’s Disclosure and Sanctions (D.E. 28)
• Fan Gu’s Motion to Oppose Defendant’s Response to Plaintiffs Motion to
Invalidate Judgment’s [sic] and Relief (D.E. 38)
• Invista S.a r.l.’s Motion to Dismiss Plaintiffs First Amended Complaint
(D.E. 41)
The court recommends that the defendant’s motion to dismiss (D.E. 41) be
granted and that this action be dismissed with prejudice. The court further

Case 4:19-cv-00562 Document 48 Filed on 08/15/19 in TXSD Page 2 of 9

recommends that any remaining dispositive motions be denied. The court denies
any remaining non-dispositive motions as moot.
I.

Introduction and Procedural Posture
Fan Gu sued Invista S.a r.l. (“Invista”) in Harris County, Texas on

December 30, 2014, alleging a cause of action for age discrimination under the
Texas Labor Code. Invista removed the case to federal court in this district. The
case was docketed under cause number 4:15-cv-240 and assigned to Judge Hittner
(“Gu I”).

The court granted Invista’s motion for summary judgment (Gu I, D.E. 68)
and entered final judgment against Gu on May 2, 2016. (Gu I, D.E. 69.) Gu
appealed. The United States Court of Appeals for the Fifth Circuit affirmed and
issued its mandate on May 9, 2017. (Gu I, D.E. 85.) The Supreme Court denied
Gu’s petition for a writ of certiorari on November 6,2017. (Gu I, D.E. 88.)
Gu filed this action on January 29, 2019, and, with leave of court, filed his
amended complaint on July 1, 2019. (D.E. 1, 40.) Gu’s complaint is an attempt to
re-litigate Gu I. For example, Gu claims that Gu I was wrongly decided. He alleges
that witnesses lied and that false documents were submitted to the court during the
previous litigation. He claims he was not notified of key events and filings. He
alleges that Invista failed to serve him with various documents. Gu believes that he
was discriminated against as a pro se litigant and was denied due process. He states
2

Case 4:19-cv-00562 Document 48 Filed on 08/15/19 in TXSD Page 3 of 9

in his Amended Complaint that “Plaintiff filed this suit to reopen the age
discrimination case and seek relief from [c]ivil judgments per FRCP 60(b) as
Defendant committed fraud, peijury, forging of documents and evidence .. .” (D.E.
40 at 5.)
Based on a litany of complaints about Invista’s conduct during the litigation
of Gu I, Gu now asserts three causes of action against Invista: Age discrimination
under 29 U.S.C. § 623(a)(1); perjury under 18 U.S.C. §§ 1621-23; and violations
of his First, Eighth, and Fourteenth Amendment rights.
Invista has moved to dismiss all of Gu’s claims under Fed. R. Civ. P.
12(b)(6). Invista argues that Gu’s age discrimination claim is barred by res
judicata. As for Gu’s perjury allegations, Invista argues that no such private right
of action exists. Finally, Invista argues that it cannot be held liable for Gu’s
constitutional claims because it is not a state actor.
II.

Standard of Review
A plaintiffs complaint should “contain either direct allegations on every

material point necessary to sustain a recovery ... or contain allegations from
which an inference may fairly be drawn that evidence on these material points will
be introduced at trial.” Campbell v. City of San Antonio, 43 F.3d 973, 975 (5th Cir.
1995) (quotation omitted). Under Rule 12(b)(6), a complaint that does not allege
“enough facts to state a claim to relief that is plausible on its face” should be
3

Case 4:19-cv-00562 Document 48 Filed on 08/15/19 in TXSD Page 4 of 9

dismissed. Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007). However,
“[rjegardless of how well-pleaded the factual allegations may be, they must
demonstrate that that party is entitled to relief under a valid legal theory. Langen v.
Sanchez Oil & Gas Corp., No. CV 4:18-2840, 2019 WL 1674348 at *3 (S.D. Tex.
Apr. 17,2019).
The court liberally construes pro se pleadings. See Erickson v. Pardus, 551
U.S. 89, 94 (2007). When a plaintiffs complaint fails to state a claim, the court
should generally give the plaintiff a chance to amend the complaint under Rule
15(a) before dismissing the action with prejudice, unless doing so would be futile.
See Great Plains Trust Co. v. Morgan Stanley Dean Witter & Co., 313 F.3d 305,
329 (5th Cir. 2002); see also Ayers v. Johnson, 247 F. App’x 534, 535 (5th Cir.
2007) (“[A] district court acts within its discretion when dismissing a motion to
amend that is frivolous or futile.”).
ID.

Analysis

A. Gu’s Claims are Barred by Res Judicata
Res judicata ensures the finality of decisions. It prevents litigation of all
grounds for, or defenses to, recovery that were previously available to the parties,
regardless of whether they were asserted or determined in the prior proceeding.
Brown v. Felson, 442 U.S. 127, 131 (1979); Goldbergv. Longo Const. Co. Inc., 54
F.3d 243, 246 (5th Cir. 1995). “[A]n action is barred by the doctrine of res judicata
4

Case 4:19-cv-00562 Document 48 Filed on 08/15/19 in TXSD Page 5 of 9

if: 1) the parties are identical in both actions; 2) the prior judgment was rendered
by a court of competent jurisdiction; 3) the prior judgment was final on the merits;
and 4) the cases involve the same cause of action.” Travelers Ins. Co. v. St. Jude
Hosp. of Kenner, La., Inc., 37 F.3d 193, 195 (5th Cir. 1994). Cases involve the
same cause of action when the plaintiff bases the claims on the same nucleus of
operative facts. In re Howe, 913 F.2d 1138, 1144 (5th Cir. 1990).
Gu has sued the same party as in Gu I. The United States District Court for
the Southern District of Texas is one of competent jurisdiction. The final judgment
was on the merits of Gu’s age discrimination claim.
While Gu is now casting his age discrimination claim as a cause of action
under federal rather than state law, the facts he alleges are the same in both cases.
In fact, Gu openly admits that he is seeking to “reopen” Gu I. Gu alleges no facts
to suggest that Invista has engaged in discriminatory conduct since Gu I was
dismissed. There is no reason Gu could not have brought this same cause of action
in Gu I. Gu’s age discrimination claim is barred by res judicata.
The same is true of Gu’s perjury and constitutional claims. These claims are
nothing more than complaints about how Invista litigated Gu I. Gu does not
explain why he could not raise questions about false testimony or documents
during the pendency of Gu I. Nor does Gu explain why he could not have filed
objections based on lack of access to the court when he believed the problem arose.
5

Case 4:19-cv-00562 Document 48 Filed on 08/15/19 in TXSD Page 6 of 9

As discussed, res judicata bars not only those claims actually brought in a prior
lawsuit, but those that could have been brought.
All of Gu’s claims are barred by res judicata.
B. Perjury
To the extent that Gu’s claims based on perjury are not barred by res
judicata, they must nevertheless be dismissed. Gu seeks relief under
18U.S.C. §§1621-23. These statutes criminalize perjury, subornation of perjury
and making false declarations. None of these statutes creates a private right of
action. “Federal courts have repeatedly held that violations of criminal statutes
such as 18 U.S.C. §§ 1001, 1505 and 1621 do not give rise to a private right of
action.” Leeds v. Texas Dept, ofFamily and Protective Servs., 2015 WL 4736567
at *2 (N.D. Tex. Aug. 10, 2015); see also Nabaya v. Byron, 264 F. Supp. 3d 187,
189 (D.D.C 2017).
Gu cannot recover damages or obtain injunctive relief based on Invista’s
alleged false statements or submission of false documents during the litigation of
Gu I. Any claims based on perjury or the submission of false evidence must be
dismissed pursuant to Fed. R. Civ. P. 12(b)(6).
C. Constitutional Claims
To the extent that any of Gu’s constitutional claims are not barred by res
judicata, they are meritless and must be dismissed.
6

Case 4:19-cv-00562 Document 48 Filed on 08/15/19 in TXSD Page 7 of 9

Gu alleges that his rights under the First, Eighth, and Fourteenth
Amendments were violated because, as a pro se litigant, he was denied due process
and the right to a meaningful opportunity to be heard. Gu provides no facts to
support any plausible claim that Invista did anything to prevent him from accessing
the courts or presenting evidence or arguments. For this reason alone, Gu’s
constitutional claims must be dismissed under Rule 12(b)(6).
Even if Invista did somehow prevent Gu from presenting his case in court,
Invista is not liable under the Constitution. The First Amendment prevents only
governmental abridgment of speech. Manhattan Community Access Corp. v.
Halleck, 139 S. Ct. 1921, 1928 (2019). Gu does not allege that Invista is a
governmental agency or that it is acting on behalf of the government. The same is
true of the Fourteenth Amendment. “That Amendment erects no shield against
merely private conduct, however discriminatory or wrongful.” Burton v.
Wilmington Parking Auth. 365 U.S. 715, 721 (1961). Gu does not allege any facts
to suggest that Invista is part of the government. Invista is not liable under either
the First or the Fourteenth Amendments.
The Eighth Amendment protects criminal defendants from the imposition of
excessive bail or cruel and unusual punishment. U.S. Const, amend VIII. This is
not a criminal case. There are no allegations that Gu has been denied bail or

7

Case 4:19-cv-00562 Document 48 Filed on 08/15/19 in TXSD Page 8 of 9

punished in any way. Any claims under the Eighth Amendment are legally and
factually meritless.
Gu’s constitutional claims lack merit and must be dismissed under Rule
12(b)(6).
IV.

Conclusion

Gu’s First Amended Complaint fails to state a claim upon which relief may
be granted. The court recommends that Invista’s Motion to Dismiss Plaintiffs First
Amended Complaint (D.E. 41) be granted. The court allowed Gu an opportunity to
amend his complaint. The court finds that any further amendments would be futile.
The court therefore recommends that this action be dismissed with prejudice. See
Ayers, 247 F. App’x at 535.
The court recommends that Invista’s first Motion to Dismiss for Failure to
State a Claim (D.E. 16) be denied as moot.
The court construes Gu’s Motion to Invalidate Judgments and Relief
(D.E. 19) as a motion for relief from judgment, pursuant to Fed. R. Civ. P.
60(b)(3), which permits relief from a judgment based on fraud, misrepresentation,
or misconduct by an opposing party. Setting aside the procedural impropriety of
filing this motion in this case, the motion is late. Rule 60(c)(1) requires such a
motion to be filed no more than a year after entry of judgment. More than a year

8

I

Case 4:19-cv-00562 Document 54 Filed on 08/30/19 in TXSD Page 1 of 1

i

United States District Court
Southern District of Texas

ENTERED
tUNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION

i
;■

i

FanGu,

Plaintiff,
i

}

v.

«
i

*
i

Invista S.a.r.l.
Defendant.

§
§
§
§
§
§
§

September 03, 2019
David J. Bradley, Clerk

\

Civil Action No. H-19-562

!
t

ORDER OF ADOPTION
On August 15, 2019, Magistrate Judge Peter Bray issued an Amended
;

Memorandum and Recommendation (D.E. 48), recommending that the court grant
•;

;

Ivista S.a.r.l.’s motion to dismiss Gu’s first amended complaint (D.E. 41) and deny
Gu’s motion for relief from judgment (D.E. 19), along with other motions (D.E.
16,21,22,28, 38). Gu filed objections (D.E. 50), which are denied.
After due consideration of the entire record and the applicable law, the court
hereby ADOPTS the Memorandum and Recommendation as this court’s opinion
and order. The court will issue a final judgment.
1
5

Signed at Houston, Texas on August

3P , 2019.

i
i

I

i

!

DAVID HITTNER
UNITED STATES DISTRICT JUDGE

